PROOF OF SERVICE

I, Frederick W. Claybrook, Jr., a member of the bar of this Court, hereby certify
that on the 26th day of July, 2021, one copy of the Brief Amici Curiae of the
Congressional Prayer Caucus Foundation, et al., supporting granting the Petition in
No. 20-1800, was served by first-class mail, postage pre-paid, on the following:
Mathew D. Staver
Counsel of Record for Petitioners
Liberty Counsel
P.O. Box 540774
Orlando, FL 32854
Susan Mary Weise
Counsel of Record for Respondents
City of Boston Law Department
Room 615 - City Hall
Boston, MA 02201

/s/ Frederick W. Claybrook, Jr.
Frederick W. Claybrook, Jr.
Counsel of Record
Claybrook LLC
700 Sixth St., NW, Ste. 430
Washington, D.C. 20001
(202) 250-3833
rick@claybrooklaw.com

